                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: A-05110075
                                                                               11          Page 1 of 1



        We received an allegation1 that the subject's NSF proposal2 contained plagiarized text. Our
        review of the subject's proposal revealed a small amount text apparently copied from five
        different source documents. Although the subject referenced most of the apparently copied text
        in the proposal, he did not distinguish the copied text from that of his own.

        We wrote to the subject requesting a response concerning the apparently copied text. The
        subject's response stated that he thought he made every attempt to credit the authors of the
        original sources in the NSF proposal. He explained that, except for a couple of incorrect sources
        cited in the proposal, an accident, he cited the source documents for the copied text. He argued
        that he followed guidelines he learned for citing material from other sources - the use of
        parenthetical citations to attribute credits to the original source or authors. In addition, in
        response to our question concerning any other copied text in any of his earlier submitted NSF
        proposals, the subject provided a copy of an earlier NSF proposal, noting two lines of copied
        text. We discussed the entire issue of plagiarism with the subject personally, explaining the
        differences between the two types of plagiarism - intellectual theft and verbatim copying. We
        also discussed the potential seriousness of both forms of plagiarism in proposals as well as in
        j ournal articles and other documents.

        Because the amount of copied text was small, we wrote to the subject, emphasizing the
        importance of differentiating words copied from other sources from his own words in proposals
        as well as publications.

        This case is closed and no fbrther action will be taken.




SF OIG Form 2 (1 1/02)
